App. 1
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
WILLIE J. NEWTON, JR.,
Petitioner-Defendant,
v.
UNITED STATES
OF AMERICA

Case No. 04-C-718
(Criminal Case
No. 00-CR-242)

Respondent-Plaintiff.
DECISION AND ORDER
(Filed Sep. 19, 2017)
Petitioner Willie Newton filed a motion pursuant
to 28 U.S.C. § 2255(f )(4) seeking re-sentencing based
on the reclassification of his prior felony drug convictions by the State of California.1 I ordered the
1

Section 2255(a) allows a federal prisoner to challenge his
sentence “upon the ground that the sentence was imposed in violation of the Constitution or laws of the United States, or that the
court was without jurisdiction to impose such sentence, or that
the sentence was in excess of the maximum authorized by law, or
is otherwise subject to collateral attack.” A one-year limitations
period applies to such motions, running from the latest of: (1) the
date on which the judgment becomes final; (2) the date on which
the impediment to making a motion created by governmental action in violation of the Constitution or laws of the United States
is removed; (3) the date on which the right asserted was initially
recognized by the Supreme Court, if that right has been newly
recognized by the Supreme Court and made retroactively applicable to cases on collateral review; or (4) the date on which the facts
supporting the claim or claims presented could have been discovered through the exercise of due diligence. 28 U.S.C. § 2255(f).

App. 2
government to respond and permitted petitioner to reply. For the reasons that follow, I deny the motion.
I.

FACTS AND BACKGROUND

On April 3, 2001, the government obtained a superseding indictment charging petitioner and others
with conspiracy to distribute and possess with intent to distribute 5+ kilograms of cocaine. 21 U.S.C.
§§ 841(a)(1), (b)(1)(A) & 846. On July 19, 2011, the government filed an information pursuant to 21 U.S.C.
§ 851, alleging that petitioner had three prior felony
drug convictions, all in California Superior Court,
dated December 9, 1999 (Case No. BA185638); December 9, 1999 (Case No. BA189319); and April 12, 1984
(Case No. A398938).
The case proceeded to trial, and on August 9, 2001,
the jury found petitioner guilty. The jury further determined that the offense involve [sic] 5 kilograms or
more of cocaine. Conviction of an offense involving 5
kilograms or more of cocaine exposes a defendant to a
minimum of 10 years up to a maximum of life in prison.
If the defendant commits such an offense after sustaining one prior conviction for a felony drug offense, the
minimum increases to 20 years; if the person has two
or more prior felony drug convictions, he is subject to
a mandatory term of life imprisonment. 21 U.S.C.
§ 841(b)(1)(A).
Prior to sentencing, petitioner argued – and the
government agreed – that the two convictions from
December 9, 1999 could not be used to enhance the

App. 3
sentence under 21 U.S.C. §§ 841(b)(1)(A) & 851, as they
came after the conspiracy charged in this case ended
(in August 1999) and thus did not qualify as “prior”
convictions. This left petitioner’s April 12, 1984 conviction, which set the statutory penalty range at 20 years
to life. Petitioner’s pre-sentence report (“PSR”) set a
base offense level of 38 based on a drug weight of 150
kg or more of cocaine, U.S.S.G. § 2D1.1(c)(1) (2000),2
then added 3 levels for aggravated role in the offense,
U.S.S.G. § 3B1.1(b), for a final offense level of 41 under
the sentencing guidelines. The PSR calculated a criminal history category of IV, producing an imprisonment
range of 360 months to life. On December 7, 2001,
Judge Randa adopted these calculations and sentenced
petitioner to life in prison. The Seventh Circuit affirmed on direct appeal. United States v. Knight, 342
F.3d 697 (7th Cir. 2003).
In 2004, 2006, and 2014, petitioner filed motions
to vacate his sentence pursuant to 28 U.S.C. § 2255.
Judge Randa denied the first motion (Case No. 04-C718, R. 5) and dismissed as successive the second and
third motions (Case No. 06-C-1122, R. 2; Case No. 14C-739, R. 4 & 7). See 28 U.S.C. § 2255(h) (indicating
that second or successive motions must be certified by
the court of appeals); see also Kramer v. United States,
797 F.3d 493, 499 (7th Cir. 2015) (holding that the
2

At the time of petitioner’s sentencing, base level 38 – the
highest level under U.S.S.G. § 2D1.1(c) – was reserved for offenses involving 150 kg or more of cocaine. Under the current
guidelines, base level 38 applies to offenses involving 450 kg or
more of cocaine. U.S.S.G. § 2D1.1(c)(1) (2016).

App. 4
district court must dismiss for lack of jurisdiction successive § 2255 motions filed without appellate authorization).
On February 27, 2017, petitioner filed (in Case
No. 04-C-718)3 the instant motion for re-sentencing,
indicating that the prior felony drug convictions set
forth in the government’s § 851 information had been
reclassified as misdemeanors pursuant to California
Proposition 47. (R. 16 Ex. A.) As is pertinent here, Proposition 47 reduces certain California drug possession
offenses from felonies to misdemeanors and permits
previously-convicted defendants to petition the court
to reclassify their qualifying felonies as misdemeanors.
United States v. Diaz, 838 F.3d 968, 971 (9th Cir. 2016).
Under Johnson v. United States, 544 U.S. 295, 303
(2005), a federal prisoner may obtain re-sentencing
pursuant to § 2255 when a state court conviction used
to enhance the federal sentence has been vacated. The
Johnson Court further explained that, so long as the
prisoner acted diligently in obtaining the state court
order vacating the conviction, the one-year limitations
period runs from the date he received notice of the vacatur.4 Id. at 310. Petitioner argued that his motion
3

As I noted in the Rule 4 Order, it is unclear why petitioner
filed the instant motion in the 2004 case (which has been reassigned to me), rather than bringing a new § 2255 action. In any
event, I see no reason to require the filing of a new action. Section
2255 motions carry no filing fee, and I have procedurally handled
the instant motion as any other § 2255 action.
4
The vacutur constitutes a “fact” supporting the claim within
the meaning of 28 U.S.C. § 2255(f)(4).

App. 5
was timely because he discovered the reclassification
of his California convictions in June 2016, less than
one year before he filed the present motion. See 28
U.S.C. § 2255(f )(4). He further argued that the motion
should not be deemed successive because his claim was
not ripe at the time he filed his previous collateral attacks. See United States v. Obeid, 707 F.3d 898, 903
(7th Cir. 2013) (holding that a motion based on a claim
that did not become ripe any earlier than until after
the adjudication of the petitioner’s first motion is not
successive within the meaning of § 2255(h)); see also
Panetti v. Quarterman, 551 U.S. 930, 947 (2007) (“The
statutory bar on ‘second or successive’ applications
does not apply to a . . . claim brought in an application
filed when the claim is first ripe.”).
In its response, the government argued that petitioner failed to act with due diligence in seeking relief
based on Proposition 47 and that, in any event, his motion fails on the merits. In his reply submissions, petitioner argues that he diligently pursued relief under
Proposition 47 and timely filed the instant motion once
notified by the state court that relief had been granted.
Based on petitioner’s submissions (R. 22 Ex. A &
B), it appears that he acted diligently in seeking relief
under Proposition 47, and that he filed the instant motion within one year of learning that the state courts
had acted favorably. I need not definitively resolve the
issue, however, as the motion fails on the merits.5 First,
5

Because petitioners claim based on Proposition 47 was not
ripe at the time of his earlier collateral attacks, the instant motion

App. 6
petitioner fails to show that reclassification under
Proposition 47 impacts the lawfulness of a federal sentence under 21 U.S.C. §§ 841 & 851. Second, even if
such a reclassification could in some cases support
modification of a sentence imposed pursuant to a federal recidivist statute, petitioner fails to show that the
lawfulness of his sentence is affected by the reclassification of his California convictions.
II.

DISCUSSION

A. Proposition 47 Reclassification
In Diaz, the Ninth Circuit rejected a challenge to
an enhanced sentence under 21 U.S.C. § 841(b)(1)(A)
based on Proposition 47. The defendant in that case
was sentenced to life in prison based on two prior California convictions, one of which the state court later
reduced to a misdemeanor. 838 F.3d at 971. The Ninth
Circuit noted that federal law, not state law, governs
the interpretation of a federal statute, and that when
a state grants post-conviction relief with respect to a
state felony conviction federal courts generally do not
apply those changes retroactively for purposes of determining whether a federal sentencing statute’s requirements are met. 838 F.3d at 972. The court further
noted that it had previously held that a state’s dismissal or expungement of a predicate state conviction had
no bearing on whether § 841’s requirements were met;

does not qualify as successive, and this court has jurisdiction to
consider it. See Obeid, 707 F.3d at 903.

App. 7
the court saw no reason to treat a conviction downgraded
pursuant to Proposition 47 any differently.6 Id. at 973.
The Seventh Circuit has not addressed the effect
of a Proposition 47 reclassification, but it has, like the
Ninth Circuit, held that federal law, not state law, defines what is considered a conviction for the purposes

6

The Diaz court acknowledged an exception to the general
rule when the state dismissal alters the legality of the original
conviction, such as where there was trial error or the defendant
was actually innocent of the underlying crime. However, a Proposition 47 downgrade does not make the defendant innocent of his
drug offense, id. at 973 n.3, and petitioner makes no argument of
that sort here. Petitioner cites United States v. Summey, No.
EDCV 15-00625-VAP, 2015 U.S. Dist. LEXIS 175511 (C.D. Cal.
Sept. 30, 2015), in which the court granted § 2255 relief after the
defendant’s California convictions were re-designated misdemeanors pursuant to Proposition 47. However, Diaz supersedes
Summey. See United States v. Heffington, No. 1:93-CR-5021,
2016 U.S. Dist. LEXIS 54982 (E.D. Cal. Apr. 25, 2016); see also
United States v. Jackson, No. 1:14-cr-00684-CAS, 2016 U.S. Dist.
LEXIS 165402 (C.D. Cal. Nov. 21, 2016). In his first reply, petitioner argues that Diaz is distinguishable because it affirmed a
sentence on direct appeal, while he proceeds under § 2255. Relief
is generally easier to come by on direct appeal and, at all events,
petitioner fails to explain how this alters the legal proposition established in Diaz. Petitioner also argues that the Diaz court failed
to address the question left open by the Supreme Court in McNeil
v. United States, 563 U.S. 816, 825 (2011), but the Diaz court did
discuss McNeil, noting that Proposition 47 presented a variation
on the issue addressed in McNeil. 838 F.3d at 973. Finally, petitioner contends that Diaz did not address the federal constitutional claim raised here, but petitioner develops no constitutional
argument. (R. 22 at 5.) As discussed in note 9 below, he references
the due process right to be sentenced based on accurate information, but that right is not implicated under these circumstances.

App. 8
of § 841(b)(1).7 United States v. Graham, 315 F.3d 777,
783 (7th Cir. 2003) (citing United States v. Gomez, 24
F.3d 924, 930 (7th Cir.1994)). The Seventh Circuit has
also acknowledged that “expunction does not alter or
remove the existence of a prior conviction.” Id. (citing
Dickerson v. New Banner Institute, Inc., 460 U.S. 103,
115(1983)). Other circuits are in accord. As the D.C.
Circuit explained:
For purposes of sentences imposed under
§ 841 . . . Congress has not exempted from the
‘prior convictions’ that must be counted those
convictions removed from a criminal record
for policy reasons unrelated to innocence or an
error of law. The courts of appeals that have
considered this § 841 question therefore have
counted prior felony drug convictions even
where those convictions had been set aside,
expunged, or otherwise removed from a defendant’s record for such reasons.
United States v. Law, 528 F.3d 888, 911 (D.C. Cir. 2008).
Like the Diaz court, I can see no reason to apply a different rule to Proposition 47 reclassifications.
B. Petitioner’s Sentence
Even if reclassification of a felony pursuant to
Proposition 47 could support modification of a federal
sentence, petitioner cannot obtain relief in his case. As
7

Petitioner argues in reply that because the State of California no longer considers these convictions felonies, neither should
this court. (R. 22 at 6-7.) As indicated in the text, federal law controls this question.

App. 9
noted above, Judge Randa disregarded two of the three
convictions listed in the § 851 information and adopted
a statutory range of 20 years to life. He then decided to
impose a sentence of life in prison, the high end of the
guideline range of 360 months to life.8 In other words,
Judge Randa was not compelled to impose a life sentence based on petitioners now-reclassified California
convictions; he decided to impose that sentence in the
exercise of discretion. This was a lawful sentence based
on the jury’s verdict, which authorized a life term,
without regard to any prior convictions.9

8

Petitioner contends that his guideline range would be lower
under current provisions. (R. 22 at 7.) While a retroactively lowered guideline range can support sentence modification under 18
U.S.C. § 3582(c)(2), it provides no basis for relief under 28 U.S.C.
§ 2255.
9
In his second reply, petitioner argues that his federal sentence should be vacated because the support pillars have been removed due to the intervening change in state law; he argues that
it would be a miscarriage of justice to require him to serve out a
life sentence for which he is ineligible. (R. 24 at 2.) As discussed
in the text, the jury’s verdict authorized a life sentence based on
the amount of cocaine involved; the lawfulness of petitioner’s life
sentence does not depend on prior convictions. Petitioner cites
Townsend v. Burke and United States v. Tucker, but he develops
no argument that the prior convictions were invalid, such that
their consideration would violate his due process rights. (R. 24 at
2.) Finally, he alludes to an equal protection argument, but this
appears to be based on the contention that his sentence was mandatory life under § 841(b)(1)(A). (R. 24 at 4.)

App. 10
III.

CONCLUSION

THEREFORE, IT IS ORDERED that petitioner’s motion (R. 16) is DENIED. The Clerk is directed to enter judgment accordingly.
Pursuant to Rule 11(a) of the Rules Governing
Section 2255 Proceedings, the district court must issue
or deny a certificate of appealability (“COA”) when it
enters a final order adverse to a § 2255 petitioner. In
order to obtain a COA, the petitioner must make a
“substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2). A substantial showing requires a demonstration that reasonable jurists could
debate whether (or, for that matter, agree that) the petition should have been resolved in a different manner
or that the issues presented were adequate to deserve
encouragement to proceed further. Slack v. McDaniel,
529 U.S. 473, 484 (2000). For the reasons stated, petitioner cannot make such a showing, so I decline to issue a COA.
Dated at Milwaukee, Wisconsin, this 19th day of
September, 2017.
/s Lynn Adelman
LYNN ADELMAN
District Judge

App. 11
United States District Court
EASTERN DISTRICT OF WISCONSIN
JUDGMENT IN A CIVIL CASE
WILLIE J. NEWTON, JR.,
Petitioner-Defendant,
v.

CASE NUMBER: 04-C-718

UNITED STATES OF AMERICA,
Respondent-Plaintiff.
⬜

Jury Verdict. This action came before the Court
for a trial by jury. The issues have been tried and
the jury has rendered its verdict.

☒

Decision by Court. This action came to trial or
hearing before the Court. The issues have been
tried or heard and a decision has been rendered.

IT IS ORDERED AND ADJUDGED that petitioner’s motion to be re-sentenced is DENIED.
September 19, 2017
Date

Stephen C. Dries
Clerk
s/ G. Colletti
(By) Deputy Clerk

App. 12
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT
Everett McKinley [SEAL] Office of the Clerk
Phone: (312) 435-5850
Dirksen United States
Courthouse
www.ca7.uscourts.gov
Room 2722 - 219 S.
Dearborn Street
Chicago, Illinois 60604
ORDER
September 17, 2019
By the Court:
WILLIE J. NEWTON, JR.,
Petitioner - Appellant
No. 17-3096

v.
UNITED STATES OF AMERICA,
Respondent - Appellee

Originating Case Information:
District Court No: 2:04-cv-00718-LA
Eastern District of Wisconsin
District Judge Lynn Adelman
The following is before the court: INITIAL PETITION FOR REHEARING E [sic] BANC, filed on July
2, 2019, by counsel for the appellant.
No judge in active service asked for a vote on the
request for initial hearing en banc. Accordingly,

App. 13
IT IS ORDERED that the request is DENIED.
This case will proceed to a determination of whether to
issue a certificate of appealability. That determination
will be made in the ordinary manner as the court’s
schedule permits.

